                    The Internal Revenue Service Faces
                     Significant Challenges to Reduce
                     Underused Office Space Costing
                            $84 Million Annually

                                 September 2004

                       Reference Number: 2004-10-182




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                        September 27, 2004


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                     DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT


      FROM:                  Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - The Internal Revenue Service Faces
                             Significant Challenges to Reduce Underused Office Space
                             Costing $84 Million Annually (Audit # 200310007)

      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) Agency-Wide Shared Services (AWSS) Real Estate and
      Facilities Management (REFM) Division effectively manages its office space to ensure
      efficient use. In Fiscal Year (FY) 2003, the IRS spent approximately $633 million in rent
      costs for these facilities. We performed this review because space costs represent one
      of the largest nonpayroll expenditures for the IRS.
      In summary, the IRS incurs significant rent costs for space it no longer needs. The IRS
      recognized that much of its office space was underused and took action to develop
      target space utilization rates and release some of the space. However, certain
      calculations used in the development of its overall space utilization rate did not have an
      adequate basis, causing the target rate to be too high. Further, the IRS did not set
      aside funds needed to pay the costs for releasing all of its underused space. We
      estimate that the annual cost for the underused space the IRS has not taken action to
      release is approximately $64 million. Although REFM Division officials advised us they
      plan to place additional staff hired in FYs 2004 and 2005 in existing IRS space, the
      REFM Division requested $40 million in additional rent funds for these employees.
      IRS officials did not consistently compile building usage information or periodically
      validate the data. We identified examples of vacant workstations REFM Division
      personnel did not report as vacant. We also noted business unit personnel did not
      always report when changes had occurred, such as the acquisition or the release of real
      property. Local operating divisions and business units did not always cooperate with
      REFM Division personnel to ensure space usage information was accurate because
                                             2

they had little incentive for reporting vacant space. In addition, the REFM Division had
not established target utilization rates for each of its facilities.
Finally, the IRS did not take action to release office space for employees who
telecommute. Although some of the operating divisions and business units considered
telecommuting when configuring space and determining requirements, the REFM
Division did not consider telecommuting when reporting vacancies. We estimate the
IRS could save $19.8 million each year by releasing the space reserved for the
telecommuting employees.
We recommended the Chief, AWSS, adjust the target utilization rate for field offices by
revising calculations in which numbers were rounded. The Chief, AWSS, needs to
justify the request for additional rent funding for new employees, since the IRS has
sufficient existing space in which to place them. In addition, the Chief, AWSS, should
revise the plan for releasing unused space to include specific details on costs, savings,
and benefits of reducing its unneeded leased space. We also recommended the
Director, REFM Division, update guidance to include criteria for counting workstations
that are prone to inconsistent reporting and include procedures for validating space
usage. We recommended the Deputy Commissioner for Services and Enforcement
require local officials in the operating divisions to coordinate with facility managers when
making changes to space configurations, when hiring, and when there have been
changes to occupancy rates. We recommended the Deputy Commissioner for
Operations Support allocate rent funds to the operating divisions to help facilitate
cooperation between the operating divisions and local facility managers when making
changes to space and occupancy rates and help ensure more efficient use of space. In
addition, the Director, REFM Division, should establish target utilization rates for each
IRS facility. Finally, we recommended the Director, REFM Division, report vacancies
based on division requirements for telecommuting employees and release space as
appropriate.
Management’s Response: IRS management disagreed with certain conclusions in our
report. Management does not believe the IRS can achieve $84 million of cost savings
annually by releasing underused office space and expressed concern that such a
conclusion could be detrimental to the IRS in obtaining the proper funding to support its
mission. Management’s response cited complexities in managing the IRS’ space,
including recent reductions in IRS staffing that have complicated efforts to optimize use
of office space. It also cited a hiring trend that projects a 10 percent increase in the IRS
workforce by FY 2006, which indicates the space may be needed. Management stated
IRS space utilization compares favorably to that in private industry. Management did
not agree with Recommendation 1 to adjust the target utilization rate due to concerns
that revising the target rate would not allow for variances that were not accounted for,
such as computer rooms, training facilities, and inefficient building designs. However,
AWSS will reevaluate the target as the IRS’ standards change. Management also did
not agree with Recommendation 7, that the REFM Division establish target utilization
rates for each facility to assess space efficiency, contending it would be
resource-intensive and is not common industry practice.
                                                        3

The Acting Chief, AWSS, will work with the Office of the Chief Financial Officer to better
clarify the increased funding request for new hires. The Acting Chief noted that the IRS
does not plan to acquire new space with the rent funds requested for the new hires and
that this was how the IRS and other agencies budgeted for initiatives. The additional
funds could be used to reconfigure existing space, initiate rent reduction projects, or
restore the rent budget to levels required to fund rent obligations for existing space
because the rent budget has been historically underfunded. AWSS identified
$10 million in unneeded rent funding and plans to return these funds to the business
units in FY 2005.
The REFM Division will clarify the current procedures for compiling the inventory of
vacant workstations to ensure consistent reporting from all facility managers. In
addition, AWSS will update and reissue the current policy requiring local business unit
managers to coordinate personnel and space changes with facility managers. Further,
the REFM Division’s new system, Graphic Data Interface Portal, will improve business
function financial accountability by allowing the REFM Division to track rent expenses to
the business units based on the space actually occupied.
Based on the outcomes of the mid-term negotiations with the National Treasury
Employees Union (NTEU) and completion of a tracking system by the Human Capital
Office, the REFM Division will provide guidance to the facility managers’ field offices on
the identification of workstations vacated by approved full-time telecommuting
participants to be considered in space reduction activities.
Management did not agree with our reported outcome measures. Management does
not believe a 2-year return on investment is achievable for much of its underused space
because of the costs involved to release space. In addition, AWSS does not believe all
space for telecommuters can be released because the employees are not always
conveniently or contiguously located in marketable pieces of space. Further, the REFM
Division does not know where all of the telecommuting employees are located, and
some of them could be in campuses.1 Management’s complete response to the draft
report is included as Appendix V.
Office of Audit Comment: We continue to believe the conclusions and
recommendations in this report are valid. We pointed out in the report that if the IRS is
funded for the increases in staff which it projects to be needed (approximately
10,000 Full-Time Equivalent (FTE)2 positions by FY 2006), the space utilization rate will
be at an acceptable level. However, the IRS has no assurance that funding for
increases in its staffing will be approved. One reason the IRS found itself in the position
of having over 12,000 vacant workstations in 2003 was that it made incorrect
assumptions about its ability to hire staff. Even if increases are approved, hiring
choices and locations will be based on business needs, not on the location of excess


1
  The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2004, 1 FTE is equal to 2,096 staff hours.
                                             4

space. Further, the IRS requested $40 million in extra rent funding for the additional
employees. The Acting Chief, AWSS, stated the $40 million could be used for other
needs, such as reconfiguring existing space; however, the Acting Chief also claimed to
have identified $10 million in unneeded rent funding and plans to return these funds to
the business units in FY 2005. We do not believe the request for additional funding for
new hires is justified if the IRS plans to accommodate new employees in existing space.
It is not appropriate to compare the IRS space utilization rate with that of private
industry. The General Services Administration (GSA) notes that private industry and
Federal Government agencies are driven by different priorities for space use. While
private industry may wish to convey success and stability, Federal Government
agencies should convey frugality. A better benchmark would be the GSA
recommendation for the Federal Government utilization rate, which is 230 square feet
per person. This target is significantly less than the IRS’ current utilization rate
(312 square feet), its target utilization rate (265 square feet), and our recommended
target utilization rate (252 square feet). Based on concerns raised by REFM Division
officials during the audit, we agreed not to include benchmark comparisons in the audit
report because of differences in how agencies (and private industry) collect and report
space utilization data.
We do not believe it is appropriate to increase the target utilization rate for unknown
factors. The REFM Division acknowledged that it does not know how much space was
not included in its target utilization rate computation. If the REFM Division identifies a
need for such space, it should determine the amount and include the space in the
target. The target rate was properly computed based on requirements (known as a
Program of Requirements), not by measuring existing space. The existence of
computer rooms, training space, and inefficient building designs does not constitute a
requirement for the space. Some of the space occupied by these functions may be
underused or not needed. For example, technology advances have reduced the need
for large computer rooms. The IRS should not build inefficiency into a target utilization
rate. Also, even using the REFM Division’s target rate of 265 square feet per person,
the IRS’ actual utilization rate is still about 18 percent higher than the target,
representing about $45 million in underused space after considering the approved rent
reduction projects. This measure is consistent with the reported number of vacant
workstations and provides further evidence that the IRS has a significant amount of
underused space.
We recommended the IRS develop target utilization rates by facility because it is clear
from our review the IRS has encountered difficulty in determining space efficiency for
each of its facilities. The IRS’ target utilization rate of 265 square feet per person
represents a combined target for all field offices in the IRS’ inventory. Facility-specific
target utilization rates, in conjunction with other measures such as workstation
vacancies, would allow a better assessment of space efficiency for each facility.
Workstation vacancies alone would not provide an accurate measure of space
efficiency, since reducing the number of workstations would lower the reported vacancy
rate but would not result in improved space utilization or efficiency.
                                            5

The projection of the outcome measures is an estimate that assumes it would take
2 years for the IRS to recoup the cost of releasing the space. The REFM Division did
not agree with this assumption but was unable to provide a reasonable estimate of the
time needed to recoup these costs. The average annual cost of IRS office space is
$25 per square foot. If the IRS further evaluates its excess space and determines it
would cost on average more than $50 per square foot to release the space, we will
consider the information in adjusting the estimated outcomes. Nonetheless, we
projected the outcomes through 5 years only. When releasing underused office space,
the IRS will realize the cost savings beyond 5 years, since rent costs are recurring.
Also, for the cost savings related to telecommuting employees, we recognized that there
could be some difficulties in releasing all the space for telecommuting employees and
the fact that a small portion of the employees could be located in the campuses, which
is why we used a ratio of 2 telecommuting employees for every workstation (a 2:1 ratio)
instead of the 3:1 ratio allowable under the National Agreement with the NTEU. Our
estimate is 33 percent lower than that allowable under the National Agreement.
We do not agree with the IRS’ response to our recommendations on revising the target
utilization rates (Recommendation 1) and establishing target utilization rates for each
facility (Recommendation 7). We intend to elevate our disagreement related to these
recommendations to the Department of the Treasury for resolution. We also plan to
elevate our concern with AWSS management’s denial of the cost-saving opportunities
identified in this report. We believe this denial demonstrates a lack of commitment to be
accountable for properly implementing our recommendations. The Deputy
Commissioner for Operations Support is responsible for ensuring the IRS
Commissioner submits a written reply to the Assistant Secretary for Management and
Chief Financial Officer of the Department of the Treasury within 30 calendar days of the
final report issuance date. This reply should explain the IRS’ reasons for the lack of
agreement with Recommendations 1 and 7 in this audit report. The IRS Commissioner
will provide a copy of the reply to the Treasury Inspector General for Tax Administration
(TIGTA). Resolution shall be made within a maximum of 6 months after issuance of a
final TIGTA audit report, in accordance with Office of Management and Budget
Circular A-50.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                   The Internal Revenue Service Faces Significant Challenges to
                   Reduce Underused Office Space Costing $84 Million Annually




                                                  Table of Contents


Background ............................................................................................... Page 1
Additional Action to Release Underused Office Space Could Save
Approximately $64 Million Annually........................................................... Page 2
         Recommendation 1: .......................................................................Page 7
         Recommendations 2 and 3: ...........................................................Page 10

Information Needed to Effectively Manage Facilities
Was Not Accurate ..................................................................................... Page 11
         Recommendation 4: .......................................................................Page 15
         Recommendations 5 through 7:.....................................................Page 16

Office Space for Employees Who Telecommute Could
Be Released, Saving $19.8 Million Annually ............................................. Page 17
         Recommendation 8: .......................................................................Page 19

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 21
Appendix II – Major Contributors to This Report ....................................... Page 23
Appendix III – Report Distribution List ....................................................... Page 24
Appendix IV – Outcome Measures............................................................ Page 25
Appendix V – Management’s Response to the Draft Report ..................... Page 27
             The Internal Revenue Service Faces Significant Challenges to
             Reduce Underused Office Space Costing $84 Million Annually

                                The Internal Revenue Service (IRS) occupies approximately
Background
                                30.6 million square feet of space in 796 facilities throughout
                                the country.1 In Fiscal Year (FY) 2003, the IRS spent
                                approximately $633 million in rent costs for these facilities.
                                The majority of the IRS’ space is used for its field offices.
                                Table 1 shows the number of buildings and square footage
                                for the three types of IRS facilities.
                                      Table 1: Allocation of IRS Square Footage by Building Type

                                                                     Number of         Square Feet
                                    Building Type
                                                                     Buildings         (in Millions)
                                    Campuses2                              79                  9.9
                                    Field Offices3                        655                20.6
                                    Other Facilities4                      62                  0.1
                                    Total                                 796                30.6
                                Source: May 2003 Foundation Information for Real Property
                                Management (FIRM) database.

                                Treasury Directive 72-02, Acquisition, Utilization, and
                                Disposal of Treasury Real Property Assets, requires all real
                                property holdings to be fully used and put to optimum use.
                                Agencies are required to complete annual reviews that
                                identify property that is not needed or is not being put to its
                                optimum use. Real property that is not needed should be
                                promptly reported and released.
                                IRS Agency-Wide Shared Services (AWSS) has overall
                                responsibility for space management. Within AWSS, the
                                Real Estate and Facilities Management (REFM) Division
                                provides space management support to all entities of the
                                IRS.


                                1
                                  Based on the Foundation Information for Real Property Management
                                database as of May 2003.
                                2
                                  The campuses are the data processing arm of the IRS. The campuses
                                process paper and electronic submissions, correct errors, and forward
                                data to the Computing Centers for analysis and posting to taxpayer
                                accounts.
                                3
                                  Field Offices include Headquarters, Computing Centers, and Area
                                Distribution Centers.
                                4
                                  Examples of other facilities include warehouse/storage, parking, and
                                daycare centers.
                                                                                                Page 1
              The Internal Revenue Service Faces Significant Challenges to
              Reduce Underused Office Space Costing $84 Million Annually

                                 The audit assessed AWSS efforts to manage and reduce
                                 space holdings at its Headquarters and field office locations.
                                 We conducted this audit in the AWSS REFM Division at
                                 the National Headquarters in Washington, D.C., and facility
                                 manager offices at the following locations:
                                 Atlanta, Georgia; Laguna Niguel, California;
                                 Detroit, Michigan; Martinsburg, West Virginia; and
                                 Chicago, Illinois. Fieldwork was performed during the
                                 period February 2003 through March 2004. We performed
                                 limited validation on IRS data for converting usable space to
                                 rentable space because the IRS had lost some of the
                                 supporting documentation. The audit was conducted in
                                 accordance with Government Auditing Standards. Detailed
                                 information on our audit objective, scope, and methodology
                                 is presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II.
                                 It is common practice in industry and the Federal
Additional Action to Release
                                 Government to measure the efficiency of space use by
Underused Office Space Could
                                 determining the “utilization rate,” which is the number of
Save Approximately $64 Million
                                 square feet rented divided by the number of employees
Annually
                                 assigned to the space. Based on information obtained from
                                 selected agencies, the General Services Administration
                                 (GSA) recommended agencies use a target utilization rate of
                                 230 square feet per employee.
                                 In May 2002, the IRS performed an assessment of space use
                                 that identified an average vacancy rate of about 16 percent
                                 (approximately 12,000 vacant workstations) in its
                                 noncampus facilities such as Headquarters and field offices.
                                 To establish a better baseline to work toward, the IRS
                                 produced a Space Utilization Rate Proposal in March 2003,
                                 which established target space utilization rates. The
                                 proposal is an overall analysis of the IRS space
                                 requirements that considered workstation requirements,
                                 support space, and employee turnover. The Proposal
                                 recommended the IRS establish the field (noncampus) target
                                 utilization rate at 265 square feet per person. The target rate
                                 is for general office space and excludes space requirements
                                 for special use facilities such as warehouses.




                                                                                         Page 2
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   As of March 2004, the IRS’ utilization rate for its
                   noncampus facilities was 312 square feet per person,
                   computed as shown in Table 2.
                       Table 2: FY 2004 IRS Utilization Rate for Noncampus Facilities

                    Space Inventory (square feet)                      18,528,568
                    Peak Staffing5                                           59,475
                    Utilization Rate                                             312
                   Source: REFM Division.

                   The IRS’ current space utilization rate is 18 percent higher
                   than its target rate. Further, we identified certain problems
                   with the IRS calculations which indicate that its target
                   utilization rate should be no greater than 252 square feet per
                   person. The difference between this target rate and the IRS’
                   current actual rate of 312 square feet per person represents
                   approximately 3.5 million square feet, costing an estimated
                   $89 million annually. The IRS has approved space
                   reduction projects that will reduce its underused space by
                   approximately 935,000 square feet6 and its utilization rate to
                   296 square feet per person. However, the cost of the
                   remaining underused space is approximately $64 million
                   annually.
                   To compute the IRS target utilization rate, the REFM
                   Division performed the following steps:
                   1. Established a base rate – Using standards for space
                      requirements recommended by its contractor, the REFM
                      Division developed a target utilization rate for typical
                      office space.
                   2. Made adjustments for certain IRS divisions – Some IRS
                      divisions have space use requirements that are higher
                      than typical. The REFM Division computed the
                      utilization rate for these divisions and allocated those




                   5
                       Includes an estimated 1,000 contractor personnel.
                   6
                       General office space at its field office and Headquarters locations.
                                                                                        Page 3
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                       rates to the base rate based on the number of
                       employees.7
                   3. Added a factor for vacant workstations – To
                      accommodate normal fluctuations in the size of the
                      workforce, a small percentage of vacancy was allowed.
                   4. Converted to rentable square feet – The initial target was
                      based on usable square feet.8 The Federal Government
                      and industry measure space using rentable square feet.9
                   In general, the REFM Division used a logical approach and
                   followed industry and Federal Government practices when
                   developing its target rate. However, we have concerns with
                   certain calculations used. The REFM Division increased the
                   target utilization rate at intermediate steps in the
                   computation as follows:
                          After making adjustments for certain divisions, the
                           REFM Division arrived at a utilization rate (in usable
                           square feet) of 193 square feet per person. It rounded
                           this up to 200 square feet per person.
                          The conversion factor for rentable square feet was
                           24.5 percent, but the REFM Division used 25 percent.
                          The final target rate of 262.5 square feet per person
                           was rounded to 265 square feet per person.
                   The reason for rounding provided in the Space Utilization
                   Rate Proposal was “for ease of calculating.” However,
                   because of the adjustments, the REFM Division increased
                   its target utilization rate by a total of 13 square feet per
                   person. This represents a 5 percent increase in the target



                   7
                     Except Taxpayer Assistance Centers, which were allocated by the
                   amount of space occupied.
                   8
                     Usable square feet includes areas assigned to building occupants but
                   excludes unassigned building infrastructure space such as mechanical
                   rooms, telephone closets, and restrooms.
                   9
                     Rentable square feet includes the square footage of areas occupied plus
                   a prorated share of floor common areas such as elevator lobbies,
                   building corridors, restrooms, utility closets, and machine rooms. It also
                   includes a prorated share of the building common areas such as the
                   ground floor entrance lobby, atrium, loading dock, and mailroom.
                                                                                     Page 4
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   rate and accounts for 794,456 square feet.10 At an average
                   of $25 per square foot, this space costs about $19.9 million
                   annually. If the REFM Division had carried its calculations
                   through without these adjustments, its target utilization rate
                   would have been 252 square feet per person.
                   The IRS has undertaken some projects to reduce space
                   IRS officials have pointed out the high percentage of unused
                   office space is partially the result of the significant changes
                   that have occurred in the IRS since the IRS Restructuring
                   and Reform Act of 199811 was enacted. It has been difficult
                   to forecast office space needs and take action to release
                   excess space because the IRS operating divisions and
                   business units were unsure how the reorganization would
                   affect their staffing levels at each location and wanted to be
                   prepared if they needed to hire or reassign employees. In
                   addition, some of the underused space is fragmented
                   throughout buildings. While larger blocks of underused
                   space can be released cost effectively, smaller blocks
                   require space in the buildings to be reconfigured, which
                   significantly increases the cost of releasing space.
                   In FY 2002, the IRS established the Noncampus Rent
                   Reduction Team to help reduce excess space and the
                   associated rent costs in its field offices.12 The Team planned
                   to review all properties that had workstation vacancy rates
                   over 5 percent and make recommendations on which
                   properties could be released. The Team identified
                   431 noncampus13 sites that met this criterion. To evaluate
                   the feasibility of releasing rented property, the Noncampus
                   Rent Reduction Team considered short-term costs, such as
                   the cost to return the rented space to its former condition,
                   lease termination costs, and moving expenses. To maximize


                   10
                      Calculated by multiplying 13 square feet by the 61,112 employees the
                   REFM Division used when it computed the target utilization rate.
                   11
                      Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                   sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                   23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                   12
                      The IRS also has a Service Center Action Team, which is responsible
                   for space associated with the IRS campuses (formerly known as service
                   centers).
                   13
                      Includes National Headquarters facilities.
                                                                                  Page 5
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   the cost savings, the Noncampus Rent Reduction Team
                   recommended releasing only properties that would begin to
                   show a return on investment in 2 or fewer years.
                   As of March 2004, the IRS had completed 19 rent reduction
                   projects14 to release a total of 340,835 square feet, reducing
                   rent by approximately $8.8 million annually. The one-time
                   cost to release this space was approximately $7.2 million.
                   As of April 2004, the IRS had approved an additional
                   130 projects, with estimated annual savings of about
                   $24.1 million. The one-time cost to release the additional
                   934,871 square feet was estimated at $24.8 million. The
                   REFM Division is continuing to evaluate leased buildings
                   and recommend new rent reduction initiatives. Once the
                   approved rent reduction projects are completed, the IRS’
                   utilization rate should drop to 296 square feet per person.
                   REFM Division officials informed us that, in the past
                   3 years, they had budgeted $8 million each year for the rent
                   reduction projects. Although the REFM Division is
                   continuing to identify space to be released, it has been
                   limited to the projects that produce the quickest return on
                   investment. REFM Division officials have advised us that
                   they do not have funds for the major building
                   reconfigurations necessary to help bring the utilization rate
                   more in line with its goal. To avoid future rent expense for
                   space that it does not use, the IRS needs to revise its plan for
                   releasing unused leased space. The plan should include
                   specific details on costs, savings, and benefits of reducing
                   its unneeded leased space, as well as a strategy for obtaining
                   or setting aside funds for this purpose.
                   The IRS has requested a $40 million annual increase in
                   rent funds to accommodate new hiring
                   The IRS has planned hiring initiatives that could increase its
                   staffing levels over the next 2 to 3 years. The most current
                   estimates identify an increase of 3,122 Full-Time Equivalent




                   14
                        Excluding warehouses.
                                                                            Page 6
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   (FTE)15 positions in FYs 2004 and 2005 and an additional
                   request of 7,137 new positions in FY 2006.
                   Because the IRS has space available throughout its building
                   inventory, the REFM Division planned to place employees
                   in space that is currently underused. This would lower its
                   utilization rate and would be the most economical solution.
                   If the IRS placed all 3,122 employees in existing space, its
                   utilization rate would drop to 281 square feet per person,16
                   which is still well above the target. However, the REFM
                   Division’s FY 2005 budget request included $40.2 million
                   in new annual rent funding for these employees. IRS
                   officials suggested the additional funds could be used to
                   cover expected shortfalls in the rent budget.
                   The FY 2006 hiring initiative has not yet been approved.
                   However, the current estimate of 7,137 new positions could
                   also be accommodated in existing space. This would further
                   reduce the utilization rate from 281 to 252 square feet per
                   person. However, the IRS may not have available space in
                   the same geographical locations where the new positions
                   will be established. Moreover, the REFM Division has not
                   been advised by the operating divisions of the most likely
                   locations for increased staffing. Without this type of
                   coordination, it is difficult for the REFM Division to plan
                   and prioritize its rent reduction projects.

                   Recommendations

                   The Chief, AWSS, should:
                   1. Revise the target utilization rate for field offices. The
                      target utilization rate should not include additional space
                      that resulted from rounding the calculations.
                   Management’s Response: The Acting Chief, AWSS,
                   disagreed with the recommendation, stating that a precise
                   target would not allow for variances not accounted for, such
                   as computer rooms, training facilities, inefficient building

                   15
                      A measure of labor hours in which 1 FTE is equal to 8 hours
                   multiplied by the number of compensable days in a particular fiscal
                   year. For FY 2004, 1 FTE is equal to 2,096 staff hours.
                   16
                      After completion of the approved rent reduction projects.
                                                                                   Page 7
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   designs, or cases where the IRS is forced to accept more
                   than it requires. AWSS management stated the target
                   utilization rates needed to be attainable and include some
                   flexibility for varying building conditions. AWSS contends
                   that rounding the target utilization rate provides this
                   flexibility and an allowance for space not included in the
                   target. Further, management stated that IRS space
                   utilization compares favorably to that in private industry.
                   AWSS will reevaluate the target as the IRS’ standards
                   change.
                   Management did not agree with our estimated cost savings
                   from revising its target utilization rate and taking the
                   necessary actions to achieve that rate. Management does
                   not believe a 2-year return on investment is achievable for
                   much of the underused space because of the costs involved
                   to release space. Further, management plans to use the
                   excess space to accommodate a planned increase in IRS
                   staffing of approximately 10,000 people by the end of
                   FY 2006.
                   Office of Audit Comment: We do not believe it is
                   appropriate to increase the target utilization rate for
                   unknown factors. The REFM Division acknowledged that it
                   does not know how much space was not included in its
                   target utilization rate computation. If the REFM Division
                   identifies a need for such space, it should define that need
                   and include the space in the target. The target rate was
                   properly computed based on requirements (known as a
                   Program of Requirements), not by measuring existing space.
                   The existence of computer rooms, training space, and
                   inefficient building designs does not constitute a
                   requirement for the space. Some of the space occupied by
                   these functions may be underused or not needed. For
                   example, technology advances have reduced the need for
                   large computer rooms. The IRS should not build
                   inefficiency into a target utilization rate simply because it
                   has inefficiency today. Also, even using the REFM
                   Division’s target rate of 265 square feet per person, the IRS’
                   actual utilization rate is still about 18 percent higher than the
                   target, representing about $45 million in underused space
                   after considering the approved rent reduction projects. This
                   measure is consistent with the reported number of vacant

                                                                             Page 8
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   workstations and provides further evidence that the IRS has
                   a significant amount of underused space.
                   We do not believe it is appropriate to compare the IRS space
                   utilization rate with that of private industry. The GSA notes
                   that private industry and Federal Government agencies are
                   driven by different priorities for space utilization. While
                   private industry may wish to convey success and stability,
                   Federal Government agencies should convey frugality. A
                   better benchmark would be the GSA recommendation for
                   the Federal Government utilization rate, which is
                   230 square feet per person. This target is significantly less
                   than the IRS’ current utilization rate (312 square feet), its
                   target utilization rate (265 square feet), and our
                   recommended target utilization rate (252 square feet).
                   Based on concerns raised by REFM Division officials
                   during the audit, we agreed not to include benchmark
                   comparisons in the audit report because of differences in
                   how agencies (and private industry) collect and report space
                   utilization data.
                   We pointed out in the report that, if the IRS is funded for the
                   increases in staff which it projects to be needed
                   (approximately 10,000 FTEs by FY 2006), the space
                   utilization rate will be at an acceptable level. However, the
                   IRS has no assurance that funding for increases in its
                   staffing will be approved. One reason the IRS found itself
                   in the position of having over 12,000 vacant workstations in
                   2003 was that it made incorrect assumptions about its ability
                   to hire staff. Even if increases are approved, hiring choices
                   and locations will be based on business needs, not on the
                   location of excess space. Further, the IRS requested
                   $40 million in extra rent funding for the additional
                   employees. The Acting Chief, AWSS, stated the
                   $40 million could be used for other needs, such as
                   reconfiguring existing space; however, the Chief also
                   claimed to have identified $10 million in unneeded rent
                   funding and plans to return these funds to the business units
                   in FY 2005. We believe the IRS’ request for additional
                   funding reflects more than the full cost of its hiring initiative
                   if the IRS plans to accommodate new employees in existing
                   space.


                                                                             Page 9
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   The projection of the outcome measures is an estimate that
                   assumes it would take 2 years for the IRS to recoup the cost
                   of releasing the space. The REFM Division did not agree
                   with this assumption but was unable to provide a reasonable
                   estimate of the time needed to recoup these costs. The
                   average annual cost of IRS office space is $25 per square
                   foot. If the IRS further evaluates its excess space and
                   determines it would cost on average more than
                   $50 per square foot to release the space, we will consider
                   the information in adjusting the estimated outcomes.
                   Nonetheless, we projected the outcomes through 5 years
                   only. When releasing underused office space, the IRS will
                   realize the cost savings beyond 5 years, since rent costs are
                   recurring.
                   2. Justify the funding request for space for anticipated new
                      hires by maximizing the use of existing space to house
                      the new employees and determining the funding request
                      based on anticipated needs, including the reconfiguring
                      of fragmented space to improve efficiency and reduce
                      long-term lease holdings and costs.
                   Management’s Response: The Acting Chief, AWSS, will
                   work with the Office of the Chief Financial Officer to
                   clarify the increased funding request for new hires. The
                   Acting Chief, AWSS, stated the IRS did not intend to use
                   requested funds to acquire expansion space, but it could use
                   the funds to cover unfunded rent obligations for its existing
                   inventory, initiate new rent reduction projects, or
                   reconfigure existing space. The REFM Division identified
                   $10 million in rent funding to return to the business units in
                   FY 2005.
                   Office of Audit Comment: The REFM Division identified
                   several needs for its request for additional funding but plans
                   to return $10 million in unneeded rent funding to the
                   business units in FY 2005. This action appears to contradict
                   the assertion that these funds were needed.
                   3. Revise the IRS plan for releasing unused space to
                      include specific details on costs, savings, and benefits of
                      reducing its unneeded leased space. In prioritizing rent
                      reduction projects, coordinate with the operating


                                                                         Page 10
               The Internal Revenue Service Faces Significant Challenges to
               Reduce Underused Office Space Costing $84 Million Annually

                                      divisions to determine planned locations for staffing
                                      increases.
                                  Management’s Response: The Acting Chief, AWSS,
                                  responded that the REFM Division continually revises its
                                  plans for releasing unused space. The Acting Chief stated
                                  that the Strategic Long Range Space and Housing Plan
                                  included the concept of recurring strategic investment based
                                  upon return on investment calculation. In January 2004, the
                                  REFM Division issued a Rent Management Guidance
                                  memorandum to begin the process of ongoing rent
                                  reduction/containment initiatives.
                                  In September 2001, AWSS developed a centralized
Information Needed to
                                  Workstation Count Database to help identify vacant
Effectively Manage Facilities
                                  workstations. The Database provides information on the use
Was Not Accurate
                                  and availability of workstations in IRS field office and
                                  Headquarters buildings. AWSS management uses the
                                  Database to help identify available space and to assist in its
                                  rent reduction efforts. As of February 2003, the Database
                                  showed 12,503 (17 percent) of the IRS’ 73,285 noncampus
                                  workstations were vacant. While this Database serves a
                                  useful purpose in helping identify overall vacancy rates, we
                                  identified errors in the data that reduce its reliability for
                                  determining which workstations are vacant.
                                  We compared the Workstation Count Database with two
                                  other databases the IRS uses to track buildings and
                                  employee information: 1) the FIRM database and 2) the
                                  Totally Automated Personnel System (TAPS). We also
                                  visited certain locations to validate the information reported.
                                  The FIRM database was developed by the GSA to help
                                  Federal Government agencies manage their real property
                                  assets and to provide a reporting mechanism for meeting the
                                  GSA and the Office of Management and Budget reporting
                                  requirements. The IRS uses the FIRM database to track
                                  inventory and reconcile rent bills. We compared the FIRM
                                  database to the Workstation Count Database to determine
                                  whether all IRS buildings were accounted for on both. The
                                  comparison identified the following differences:




                                                                                         Page 11
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                         Four buildings totaling 42,000 square feet were on the
                          FIRM database but not on the Workstation Count
                          Database.
                         Three buildings that were not on the FIRM database
                          because they had been vacated were still shown on the
                          Workstation Count Database with a total of
                          99 workstations.
                   We also compared the Workstation Count Database with the
                   TAPS. The TAPS is an online personnel system that
                   maintains current and historical information on each IRS
                   employee, including the employees’ building assignments.
                   The REFM Division recommended facility managers update
                   the Workstation Count Database by using employee
                   information in the TAPS if physical validation was not
                   possible. Of the 589 buildings included on both databases,
                   157 (27 percent) had at least a 20 percent difference in the
                   number of employees assigned to the buildings. Table 3
                   provides some examples of buildings with differences.
                         Table 3: Examples of Differences Between the TAPS and the
                               Workstation Count Database (as of March 2003)

                                                  Employees
                                       Employees Listed on the
                          Building
                                       Listed on Workstation Difference Percentage
                          Location
                                       the TAPS     Count
                                                  Database
                    New York, NY           837         1,145       308          37%
                    Norwalk, CT             95           38         57          60%
                    Hato Rey, PR           167          100         67          40%
                    Cheektowaga, NY        721          538        183          25%
                   Source: Comparison of the TAPS and the Workstation Count Database.

                   In addition to the above analyses, we reviewed the reports
                   for selected buildings from April through October 2003.
                   This analysis indicated no changes had been made in the
                   Workstation Count Database even though rent reduction
                   projects were being completed in some of the buildings,
                   which would cause a change in the workstation count on the
                   database.




                                                                             Page 12
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   Guidance for compiling workstation information needs
                   to be improved
                   AWSS issued the Workstation Database Users Guide,
                   followed by the Supplemental Workstation Count
                   Guidelines. This guidance provided the facility managers
                   with details on how to define a workstation and how to
                   count the number of vacancies. However, facility managers
                   were not interpreting or consistently applying the guidance
                   when completing building usage information. Even within
                   the same office, the individuals performing the counts were
                   inconsistent in their interpretation of the workstation
                   criteria.
                   To determine the number of workstations, the facility
                   managers compiled building usage data and reported it to
                   AWSS. During our site visits, we noted similar situations
                   were reported differently. For example, one facility
                   manager designated seven workstations for visiting
                   employees and did not count them as vacant. However,
                   another facility manager for a similar building counted all
                   unassigned workstations as vacant and did not exclude those
                   used by visitors. Additional discrepancies included:
                        Space for 21 managers’ offices was included in
                         1 workstation count, but 23 of the same type of
                         managers’ offices were excluded from the count of a
                         different building.
                        Workstations being used for common use equipment,
                         such as printers and fax machines, were not consistently
                         counted. Locations varied as to the percentage of
                         workstations used for this purpose.
                        Unassigned workstations used to store reference
                         material were not counted.
                   AWSS should provide the facility managers with guidance
                   that addresses those situations subject to individual
                   interpretation.
                   Facility managers did not adequately validate the
                   accuracy of the Workstation Count Database
                   Facility managers are responsible for ensuring the accuracy
                   of the Workstation Count Database, but the facility
                                                                           Page 13
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   managers advised us they did not have the time or resources
                   to visit each of the buildings. They had to rely on alternate
                   methods. Some facility managers developed local
                   procedures to validate the information, but the local
                   procedures did not provide adequate assurance that the
                   workstations were properly counted and maintained on the
                   Workstation Count Database.
                   AWSS guidance does not adequately address validation of
                   the Workstation Count Database. AWSS guidance
                   recommended facility managers use the TAPS to populate
                   and update the Database to reflect changes in employee
                   assignments. However, as noted previously, our analysis
                   showed significant differences between the TAPS and the
                   Workstation Count Database.
                   AWSS needs to revise guidance to ensure the facility
                   managers periodically validate the information in the
                   Workstation Count Database. This should be accomplished
                   by physical inspection since the alternate techniques for
                   validation, such as using the TAPS, did not ensure accuracy.
                   Operating divisions and business units did not always
                   provide updated information
                   To ensure workstations and vacant space are accounted for
                   properly, the IRS needs the local operating divisions to
                   actively participate and support AWSS efforts to identify
                   this space. Nonetheless, local IRS officials in the operating
                   divisions and business units did not always notify facility
                   managers when they made floor plan changes or had
                   changes to their vacancy rates. For example, the Atlanta
                   Facility Manager was not informed when one division
                   decided not to hire employees to fill its renovated space. As
                   a result, the Facility Management Office was left with
                   excess space for about 200 workstations. In addition, some
                   divisions made changes to their office space without AWSS
                   involvement or notification, and one division restricted
                   Facility Management Office personnel from performing
                   onsite inspections to validate the occupancy data.
                   IRS operating divisions and business units may be reluctant
                   to disclose excess space because there is no benefit to them
                   to report it. When the IRS reorganized, AWSS was given

                                                                        Page 14
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   responsibility for managing space and paying the rent bills
                   from a centralized rent budget. Operating divisions do not
                   realize the benefit of savings if they reduce rent costs.
                   Although AWSS has the responsibility for managing space,
                   it is often difficult to gain the cooperation of the IRS
                   operating divisions to reduce their office space.
                   Although there was some cooperation between local
                   officials in the operating divisions and the Facility
                   Management offices, the IRS needs to establish better
                   communication between the offices to ensure consistent and
                   reliable information. The IRS should consider incentives
                   and consequences to ensure better cooperation.
                   Target utilization rates should be established for each
                   facility
                   In addition to the Workstation Count Database, the REFM
                   Division collects information on the space usage for each of
                   its facilities. This allows the REFM Division to assess the
                   reasonableness of the vacancies reported on the Workstation
                   Count Database and assists the Division in identifying
                   underused space. The IRS’ target utilization rate of
                   265 square feet per person represents a combined target for
                   every field office facility in the inventory, but it is not
                   always practical when measuring space efficiency on a
                   building-by-building basis. Each facility has unique space
                   requirements, depending on such factors as the types of
                   divisions in and the size of the facility. Facility-specific
                   target utilization rates would allow the REFM Division to
                   make a better assessment of space efficiency for each
                   facility.

                   Recommendations

                   4. The Director, REFM Division, should update criteria on
                      how facility managers should count workstations and
                      vacancies. The guidance should include examples of
                      situations that have been prone to inconsistent reporting,
                      as well as criteria on what types of buildings should be
                      included and when buildings should be added or
                      removed. It should include a methodology that will


                                                                        Page 15
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                       allow periodic validation of the accuracy of the
                       Database, such as physical inspections of the property.
                   Management’s Response: The Acting Chief, AWSS, will
                   clarify the current procedures for compiling the inventory of
                   vacant workstations to ensure consistent reporting from all
                   facility managers. The guidance will consist of the type of
                   workstations to be inventoried, how to determine what a
                   shared workstation should be, and which workstations meet
                   the National Workstation Standards.
                   5. The Deputy Commissioner for Services and
                      Enforcement should require local officials in the
                      operating divisions to coordinate with the facility
                      managers when making changes to space configuration,
                      when hiring, or when there have been changes to the
                      occupancy rates.
                   Management’s Response: AWSS will update and reissue
                   the current policy requiring local business unit managers to
                   coordinate personnel and space changes with facility
                   managers for signature by the Deputy Commissioner for
                   Operations Support.
                   6. The Deputy Commissioner for Operations Support
                      should consider allocating the rent funds to the operating
                      divisions, to help ensure more efficient use of space and
                      more communication between the facility managers and
                      the local operating divisions, and should consider
                      incentives and consequences to ensure better
                      cooperation.
                   Management’s Response: The REFM Division’s new
                   system, Graphic Data Interface Portal, will improve
                   business function financial accountability by attributing rent
                   expenses to the business units based on actual occupancy. It
                   will require support from the Chief Financial Officer for
                   interface with the IRS’ new Integrated Financial System.
                   7. The Director, REFM Division, should establish target
                      utilization rates for each facility and assess space
                      efficiency by comparing the target rate with the actual
                      utilization rate for each facility.



                                                                         Page 16
               The Internal Revenue Service Faces Significant Challenges to
               Reduce Underused Office Space Costing $84 Million Annually

                                  Management’s Response: The Acting Chief, AWSS,
                                  disagreed with this recommendation. The Acting Chief
                                  contended that it would be resource-intensive and is not
                                  common industry practice. The REFM Division developed
                                  workstation/office standards for each position and function
                                  in the IRS that should be used in determining individual
                                  building results.
                                  Office of Audit Comment: Facility-specific target
                                  utilization rates, in conjunction with other measures such as
                                  workstation vacancies, would allow a better assessment of
                                  space efficiency for each facility. Workstation vacancies
                                  alone would not provide an accurate measure of space
                                  efficiency, since reducing the number of workstations would
                                  lower the reported vacancy rate but would not result in
                                  improved space utilization or efficiency.
                                  The IRS offers many of its employees the opportunity to
Office Space for Employees
                                  work away from the office in the field or at home. This
Who Telecommute Could Be
                                  arrangement can benefit both the employee and the IRS by
Released, Saving $19.8 Million
                                  reducing the overhead costs of maintaining office space.
Annually
                                  However, the IRS has not maximized its benefits because it
                                  has not realized cost savings by releasing space assigned to
                                  telecommuting employees.
                                  The National Agreement between the IRS and the National
                                  Treasury Employees Union (NTEU) requires employees
                                  who are participating in a full-time telecommuting17
                                  agreement to give up individually assigned workspace in the
                                  traditional office. Instead, management will provide them a
                                  common work area, which will be configured on a space
                                  ratio of not less than three telecommuting employees to one
                                  workstation. Full-time telecommuting employees are also
                                  expected to continue in a telecommuting status for a period
                                  of at least 12 months, given the impact that their return
                                  could have on office space.
                                  The IRS does not maintain a centralized database of the
                                  number of employees actively participating in the
                                  telecommuting program, but a 2002 managers’ survey



                                  17
                                       The National Agreement refers to this as “Occupational Flexiplace.”
                                                                                                   Page 17
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   identified 6,597 participating employees.18 Using the target
                   utilization rate of 240 square feet per person19 and a more
                   conservative ratio of 2 employees for each workstation, the
                   IRS could release approximately 792,000 square feet of
                   space for telecommuting employees. At an average of
                   $25 per square foot, we estimate that this could save
                   $19.8 million annually.
                   While the criteria and requirements established in the
                   National Agreement would allow the IRS to achieve
                   substantial cost savings for telecommuting employees, the
                   AWSS Project Investment Guide20 instructs Facility
                   Management office personnel not to consider
                   telecommuting when reporting building occupancy, in case
                   employees decide to return to regular duty at the office.
                   AWSS National Headquarters management reasoned that
                   employees could switch to an hourly telecommuting
                   agreement with 30 days’ notice; therefore, the IRS needed
                   to be prepared. In addition, officials in the REFM Division
                   noted it would need to ensure the cooperation of the NTEU
                   before releasing space because employees could switch their
                   telecommuting designation from occupational to situational.
                   By switching designation, the employees would keep their
                   space but would still not be required to come into the office
                   very often because they spent the majority of their time
                   conducting field visits.
                   Although some of the operating divisions considered
                   telecommuting when configuring space and determining
                   requirements, the facility managers did not consider
                   telecommuting when reporting vacancies. For example, a
                   division in Santa Ana, California, determined its
                   workstation requirements by applying a ratio of three
                   telecommuting employees for each workstation. However,
                   the facility manager was required to disregard

                   18
                      Based on a September 2002 Booz-Allen Hamilton report entitled IRS
                   Flexiplace Survey.
                   19
                      This target represents the rentable square feet target utilization rate if
                   Taxpayer Assistance Centers are not included.
                   20
                      The Project Investment Guide is a tool used by all Facilities
                   Management office personnel in the management of their projects. The
                   manual is to assist personnel in the budget estimates, timelines, cost
                   tracking, and evaluation of projects.
                                                                                       Page 18
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   telecommuting status and report workstation vacancies
                   based on one employee to one workstation.
                   AWSS needs to revise its policy so workstation vacancies
                   are reported consistently with the operating divisions’
                   requirements for telecommuting employees. The policy
                   should recognize the costs and benefits of releasing leased
                   space and encourage the operating divisions to take
                   advantage of the agreed upon ratios. The Workstation
                   Count Database should be updated to reflect the policy, and
                   AWSS should take action to release the additional excess
                   space.
                   Recommendation
                   8. The Director, REFM Division, should require facility
                      managers to report vacancies based on division
                      requirements for telecommuting employees. The policy
                      should take full advantage of the cost-saving provisions
                      established in the National Agreement between the IRS
                      and the NTEU and ensure the Union is in agreement
                      with policy changes. The policy change should identify
                      additional excess space, and the IRS should take action
                      to release space where appropriate.
                   Management’s Response: Based on the outcomes of the
                   mid-term negotiations with the NTEU and completion of a
                   tracking system by the Human Capital Office, the REFM
                   Division will provide guidance to the facility managers’
                   field offices on the identification of workstations vacated by
                   approved full-time telecommuting participants and to be
                   considered in space reduction activities. The
                   implementation date is dependent upon the completion of
                   mid-term negotiations and the implementation of the
                   tracking system. The REFM Division will monitor the
                   progress of these activities with the Human Capital Office.
                   Management did not agree with our estimated savings from
                   implementing this recommendation. Management believes
                   it will be difficult to release space because telecommuting
                   employees are not always contiguously located in
                   marketable pieces of space. Management also believes it
                   may take longer than 2 years to recoup the costs of releasing
                   space. Moreover, the IRS currently has no method to

                                                                         Page 19
The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                   identify the location of the participants or to determine
                   whether the participants are in field or campus offices.
                   Office of Audit Comment: We recognized that there could
                   be some difficulties in releasing all the space for
                   telecommuting employees and the fact that a small portion
                   of the employees could be located in the campuses, which is
                   why we used a ratio of 2 telecommuting employees for
                   every workstation (a 2:1 ratio) instead of the 3:1 ratio
                   allowable under the National Agreement with the NTEU.
                   Our estimate is 33 percent lower than that allowable under
                   the National Agreement. Management was not able to
                   provide a better estimate than the 2 years we assumed would
                   be needed to recoup the costs of releasing space. Finally,
                   we computed the outcomes for a 5-year period. However,
                   when releasing underused office space, the IRS will realize
                   the cost savings beyond 5 years, since rent costs are
                   recurring.




                                                                          Page 20
               The Internal Revenue Service Faces Significant Challenges to
              Reduce Underused Office Space Costing $84 Million Annually

                                                                                     Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) Agency-Wide Shared Services (AWSS) Real Estate and Facilities Management (REFM)
Division effectively manages its office space to ensure efficient use. Specifically, we addressed
whether REFM Division personnel ensure the IRS space is used properly.
To accomplish our objective, we:
I. Determined whether the IRS developed strategies to ensure its efforts to manage space needs
   were in accordance with Federal Government rules and regulations regarding the use of
   Federal Government office space.
       A. Identified the Federal Government rules and regulations and determined whether the
          IRS implemented these in its program.
       B. Reviewed REFM Division policies and procedures to determine compliance with
          laws and regulations.
       C. Reviewed the National REFM Division Strategic Space and Housing Plan to
          determine whether the Plan addressed all laws and regulations.
       D. Reviewed the Business Performance Reviews to determine whether AWSS efforts
          were focused on the appropriate use of IRS leased space.
II. Assessed whether REFM Division processes and procedures ensure effective space use and
    management of costs.
       A. Reviewed the analysis that identified unused or underused office space and identified
          actions taken to resolve those conditions.
       B. Reviewed the methodology and analysis in the March 2003 Space Utilization Rate
          Proposal.
       C. Visited a judgmentally selected sample of 5 of the 21 Noncampus Facility
          Management offices. A judgmental sample was used because we did not plan to
          project the results to the universe. The facility managers’ offices visited were
          Atlanta, Georgia; Martinsburg, West Virginia; Detroit, Michigan; Chicago, Illinois;
          and Laguna Niguel, California.




                                                                                          Page 21
                  The Internal Revenue Service Faces Significant Challenges to
                 Reduce Underused Office Space Costing $84 Million Annually

        D. Reviewed the IRS Workstation Count Database1 to determine whether significant
           levels of unused space were evident.
        E. Interviewed General Services Administration officials to determine requirements for
           space use.
        F. Reviewed the status of projects approved for implementation and the potential
           savings of the projects that have been initiated.
III. Assessed the accuracy of data related to space utilization maintained on the Foundation
     Information for Real Property Management (FIRM) database.
        A. Reviewed the standard operating procedures and quality review manual.
        B. Interviewed AWSS personnel to determine whether the operating and quality review
           procedures were used to ensure the continued accuracy of the FIRM database.
        C. Compared the Totally Automated Personnel System2 data to buildings listed in the
           FIRM database to determine whether employees occupied the buildings identified in
           the FIRM database.
        D. Reviewed the FIRM database to assess the accuracy of the data. We selected a
           judgmental sample of 5 to 10 buildings at each of the 5 Facility Management offices
           we visited and verified the lease expiration, monthly costs, and square footage of each
           building. A judgmental sample was used because we did not plan to project the
           results to the universe.




1
  In September 2001, AWSS developed a centralized Workstation Count Database to help identify vacant
workstations. The Database provides information on the use and availability of workstations in IRS field office and
Headquarters buildings.
2
  The Totally Automated Personnel System is an online personnel system that maintains current and historical
information on each IRS employee, including the employees’ building assignments.




                                                                                                           Page 22
               The Internal Revenue Service Faces Significant Challenges to
              Reduce Underused Office Space Costing $84 Million Annually

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
Barbara A. Sailhamer, Lead Auditor
David P. Robben, Senior Auditor
Angela Garner, Auditor




                                                                                      Page 23
              The Internal Revenue Service Faces Significant Challenges to
             Reduce Underused Office Space Costing $84 Million Annually

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M




                                                                                  Page 24
                 The Internal Revenue Service Faces Significant Challenges to
                Reduce Underused Office Space Costing $84 Million Annually

                                                                                               Appendix IV


                                          Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Cost Savings - Funds Put to Better Use – Potential; $64.4 million per year; $193.2 million
    over a 5-year period as described in the methodology below. This represents rent costs that
    could be avoided if the Internal Revenue Service (IRS) released unneeded, noncampus1
    office space (see page 2). We recognize this savings would be reduced if the IRS placed new
    employees in existing space; however, the Fiscal Year 2005 budget request included
    $40 million in new annual rent costs for these employees.
Methodology Used to Measure the Reported Benefit:
To estimate the funds that could be put to better use, we revised the target utilization rate to
252 square feet per person, which represents the target without the increases for rounding. We
computed the actual utilization rate by dividing the total square feet for office space
(18,528,568 square feet) by the number of positions during peak 2003 (59,475 including an
estimated 1,000 contracting personnel), to arrive at 311.5 square feet per person. We computed
the difference between the target of 252 square feet per person and the actual utilization rate of
311.5 square feet per person (59.5 square feet) and multiplied by the number of positions
(59,475) to arrive at an estimated 3,538,763 square feet of underused space. We multiplied the
underused space by the estimated cost of $25 per square foot to arrive at approximately
$88.5 million in underused space. We then reduced the savings by the approved rent reduction
projects ($24.1 million), to compute the estimated annual savings of $64.4 million, or
$322 million over 5 years. Finally, we reduced the 5-year savings by approximately
$128.8 million to estimate the cost of releasing the space assuming an average 2-year return on
investment. This computation resulted in a 5-year cost savings estimate of $193.2 million.
Type and Value of Outcome Measure:
•   Cost Savings - Funds Put to Better Use – Potential; $19.8 million per year; $59.4 million
    over a 5-year period as described in the methodology below. This represents rent costs that
    could be avoided if the IRS considered the telecommuting status of employees when
    determining space requirements (see page 17).


1
 The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                       Page 25
                    The Internal Revenue Service Faces Significant Challenges to
                   Reduce Underused Office Space Costing $84 Million Annually

Methodology Used to Measure the Reported Benefit:
To estimate the funds that could be put to better use, we used the September 2002 Booz-Allen
Hamilton report2 to estimate 6,597 employees who participate in telecommuting full-time. We
applied a ratio of 2 telecommuting employees for every workstation to estimate the IRS could
reduce space for 3,299 employees. We reduced the target utilization rate to 240 square feet per
person, to remove the overlay factor for Taxpayer Assistance Centers, since these facilities
would not be released to accommodate the telecommuting employees. We multiplied the
3,299 telecommuting employees by the 240 square feet per person utilization rate and
$25 per square foot to estimate annual cost savings of $19.8 million, or $99 million over 5 years.
We then reduced the 5-year savings by approximately $39.6 million to estimate the cost of
releasing the space, assuming an average 2-year return on investment. This computation resulted
in a 5-year cost savings estimate of $59.4 million.




2
    Based on a September 2002 Booz-Allen Hamilton report entitled IRS Flexiplace Survey.
                                                                                           Page 26
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually

                                                                Appendix V


      Management’s Response to the Draft Report




                                                                    Page 27
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 28
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 29
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 30
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 31
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 32
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 33
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 34
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 35
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 36
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 37
 The Internal Revenue Service Faces Significant Challenges to
Reduce Underused Office Space Costing $84 Million Annually




                                                                Page 38
